Docket No.

IN THE
SUPREME COURT OF THE UNITED STATES
Jamal A. Azeez, Petitioner
v.
State of West Virginia, Respondent

CERTIFICATE OF SERVICE
Petitioner Azeez hereby verifies, under penalty of peijuiy and in accordance
with 28 U.S.C. ยง1746, that a true and exact CORRECTED copy of the Petition for a
Writ of Certiorari and its Appendices were mailed via email on the 6th day of
October 2020, to Counsel for Respondent
HOLLY M. FLANIGAN (WV Bar No. 7996) (Assistant Attorney General)
812 Quarrier Street, 6th Floor
Charleston, WV 25301
Telephone: (304) 558-5830
Email: holly.m.fianigan@wvago.gov

Respectfully submitted,

